<html>
<title> - CONFRONTING RUSSIA'S WEAPONIZATION OF INFORMATION</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


 
                     CONFRONTING RUSSIA'S WEAPONIZATION OF 
                               INFORMATION

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 15, 2015

                               __________

                           Serial No. 114-37

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        
        
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]       


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 ______
 
 
                    U.S. GOVERNMENT PUBLISHING OFFICE
94-186PDF                   WASHINGTON : 2015                    
 
 
_______________________________________________________________________________________                                 
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="bcdbccd3fcdfc9cfc8d4d9d0cc92dfd3d192">[email&#160;protected]</a>  
                                
                                 
                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       BRIAN HIGGINS, New York
MATT SALMON, Arizona                 KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          ALAN GRAYSON, Florida
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                ALAN S. LOWENTHAL, California
RANDY K. WEBER SR., Texas            GRACE MENG, New York
SCOTT PERRY, Pennsylvania            LOIS FRANKEL, Florida
RON DeSANTIS, Florida                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida                 ROBIN L. KELLY, Illinois
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
SCOTT DesJARLAIS, Tennessee
REID J. RIBBLE, Wisconsin
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York
TOM EMMER, Minnesota

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Mr. Peter Pomerantsev, senior fellow, The Legatum Institute......     5
Ms. Elizabeth Wahl, former RT anchor, freelance journalist/public 
  speaker........................................................    13
Ms. Helle C. Dale, senior fellow for public diplomacy, The 
  Heritage Foundation............................................    18

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Mr. Peter Pomerantsev: Prepared statement........................     8
Ms. Elizabeth Wahl: Prepared statement...........................    15
Ms. Helle C. Dale: Prepared statement............................    20

                                APPENDIX

Hearing notice...................................................    46
Hearing minutes..................................................    47

           CONFRONTING RUSSIA'S WEAPONIZATION OF INFORMATION

                              ----------                              


                       WEDNESDAY, APRIL 15, 2015

                       House of Representatives,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The committee met, pursuant to notice, at 10 o'clock a.m., 
in room 2172 Rayburn House Office Building, Hon. Edward Royce 
(chairman of the committee) presiding.
    Chairman Royce. This hearing will come to order. I will ask 
if the members can all take their seats.
    And I had an opportunity in the early 1980s to go into East 
Germany and spend some time there, and during that time to see 
the quality of propaganda being broadcast into the East Bloc by 
Russia, the type of disinformation campaign that was going on.
    And I would have to say that since that time the caliber of 
propaganda has become much more clever than that which was 
disseminated then.
    And today we are going to look at the danger of Russia's 
misinformation campaign in Europe and, indeed, today that 
misinformation campaign is worldwide and we are also going to 
look at the failed response to that effort.
    And as we will hear today, Russia's propaganda machine is 
really at this time in overdrive and part of the focus, from my 
standpoint, seems to be to subvert democratic stability. And, 
frankly, there is also an element of this that goes to the 
issue of fomenting violence in Eastern Europe.
    Now, myself and Eliot Engel had an opportunity to go into 
Dnepropetrovsk and talk to civil society, the women's groups, a 
lot of different organizations, the lawyers groups, and this 
was one of the issues that people are concerned about and these 
tactics have undermined the government in Ukraine and, frankly, 
helped lay a foundation for invasion there.
    This same plan is being worked in Eastern and Central 
Europe and this Russian propaganda has the potential to 
destabilize NATO members and it could impact our security 
commitments, especially if we look at some of what is going on 
in the Baltic States.
    So this Russian campaign, what one witness describes as the 
``weaponization of information,'' seriously threatens U.S. 
security. Russia has deployed an information army inside 
television, radio, and newspapers throughout Europe.
    Some are doing the Kremlin's bidding and are given explicit 
guidelines to obscure the truth by spreading conspiracies, and 
I would just give you examples of some of the things you read 
now on these Russian broadcasts or some of the things that are 
alluded to.
    One was a conspiracy that our own Government here is 
responsible for everything from 9/11, the attack on 9/11 to the 
downing of Malaysia Flight MH17 over Ukraine. Others are simply 
paid more for demonizing the West, while those who pursue 
credible reporting are pushed aside.
    Today, we will hear from journalist Liz Wahl, who 
dramatically interrupted a live broadcast to resign from RT, a 
Russian outlet, explaining she could not stand by its distorted 
coverage of Russia's occupation of Ukraine.
    Meanwhile, independent journalists in Russia have come 
under attack. There have been three journalists in Russia 
killed so far this year. Unfortunately, Ms. Wahl is a rarity.
    So Russian speakers in the frontline states like the 
Baltic, Ukraine, and Moldova continue to be told that their 
governments want to oppress and render them second class 
citizens.
    Unfortunately, many are buying this divisive message. In 
parts of Europe where there aren't Russian speaking populations 
there is also a message and that message is that Western 
democracy is morally corrupt and that integration with Europe 
since the Cold War has failed.
    It is estimated that Putin is spending more than $600 
million a year to deride democratic pluralism and the U.S. 
response to this? Well, the agency expected to manage our 
response, the Broadcasting Board of Governors, is far behind.
    After years of Mr. Putin ramping up the effort in Russia, 
last fall the BBG finally launched its flagship response to 
Russian propaganda--a mere 30-minute television news program in 
the Russian language called ``Current Time.''
    The program was put on air in Lithuania, Moldova, Georgia, 
Ukraine, and Latvia. But after just 4 months it was pulled in 
Latvia because it couldn't draw an audience. Now, what U.S.-
backed news and information that does get through, the amount 
of that is a thimble of journalistic credibility in an ocean of 
Russian-driven news distortion and this isn't a matter of 
resources, from my perspective.
    U.S. broadcasters are laboring under a flawed bureaucracy. 
Members may recall that then Secretary Clinton called the 
agency defunct in her testimony before this committee in 2013.
    The Inspector General and the Government Accountability 
Office have been highly critical, and the agency hired a CEO 
and he quit after 42 days on the job. Last week, the director 
of the VOA announced his resignation.
    Our international broadcasting is in disarray. The 
journalists of the BBG risk their lives reporting from the 
front lines across the world. They deserve better support, and 
the American people need much more from this agency if we are 
going to respond to the rapidly evolving media environment and 
better secure the long-term security interests of the United 
States.
    Last Congress, the House unanimously passed bipartisan 
legislation introduced by myself and Ranking Member Eliot 
Engel. This legislation is referenced in an op-ed today in the 
Wall Street Journal that I wrote.
    But I will just share with the members here that that 
legislation will help us fight Putin's propaganda by allowing 
more resources to be spent in the field and on content instead 
of on a broken bureaucracy, and by clarifying the BBG's 
mission, creating accountable leadership through a CEO and 
reducing the bureaucracy, this can lead to a situation where 
the budget there can be spent on disseminating truthful news 
and that should be the goal.
    Righting international broadcasting must be an urgent 
priority in our foreign policy, and now I would like to turn to 
the ranking member of this committee and the co-author of the 
legislation to do this, Mr. Eliot Engel of New York.
    Mr. Engel. Thank you very much, Mr. Chairman.
    Thank you for calling this morning's hearing and I 
especially want to thank you for your leadership as this 
committee works to address the growing Russian threat. You have 
really been right on top of it.
    I really appreciate it and it is just so important. Thank 
you for your courage and for your voice. It has been a pleasure 
to be your partner.
    Let me also thank our witnesses today for sharing your 
expertise about a major part of that threat--Russia's new and 
intensified propaganda effort.
    It is long past due that we take a hard look at this 
challenge. The Kremlin's disorientation campaign goes beyond 
political spin and disinformation.
    What we see pouring out of the Kremlin amounts to the 
weaponization of information. Propaganda is a critical element 
of Russia's so-called hybrid warfare strategy, a strategy on 
devastating display in occupied Crimea and war-torn eastern 
Ukraine.
    Coupled with cyber-attacks and other covert operations, 
these new capabilities and Vladimir Putin's belligerence pose a 
direct threat to our allies and our interests.
    These measures are well financed, these measures are 
working and these measures demand a robust response from us. 
Kremlin-controlled media are putting down roots around the 
world.
    Russian financial support is bolstering fringe political 
parties, creating puppet NGOs and fostering a facade of 
academic research sympathetic to Vladimir Putin's anti-
democratic world view.
    The Kremlin aims to undermine democratic organizations and 
alliances. Russia's leaders want to divide allies and partners 
while seeking to discredit the post-Cold War order in Europe.
    This strategy is not just to disseminate lies but to sow 
doubt and confusion, especially about what is actually and 
really happening in Ukraine. The component of this propaganda 
war that concerns me most is the influx of Kremlin-controlled 
television broadcasts in frontline states.
    From the Baltics to Central Asia, a Russian-speaking 
population of nearly 100 million people is getting its news 
from such distorted broadcasts. Here, the Kremlin uses high 
quality entertainment to draw an audience, then interlaces that 
programming with their twisted and false perspective on 
political, military and economic events.
    Today, I hope we can hear more about Russia's propaganda 
campaign and, more importantly, what we can do to push back 
against it. We cannot match the hundreds of millions of dollars 
the Kremlin is blowing into this effort.
    Instead, we must look to create thinking and broad-based 
partnerships. Given the scale of the Kremlin efforts, it is 
clear to me that traditional public affairs and public 
diplomacy, while important parts of a broader effort, do not go 
far enough.
    We have seen some promising initiatives. For instance, the 
Governments of Latvia and Estonia are developing a plan to 
launch Russian language television networks in their respective 
countries.
    They want to create platform for content sharing and 
establish a fund for the production of locally focused content. 
Additionally, we anticipate a feasibility study this spring 
from the European Endowment for Democracy recommending a 
similar approach.
    Mr. Chairman, as you recognized, the United States needs 
its own strategy to deal with this and we need it now. I have 
been told that our State Department is now working full tilt 
toward a plan to address this problem.
    This can't come soon enough. We are eager to work with the 
administration to develop this plan and set it in motion 
because the United States has a major role to play.
    In my view, the United States is in a unique position to 
convene partners from the private sector that will be essential 
for the success of such initiatives. Furthermore, U.S. 
leadership will be necessary to ensuring that reluctant Western 
European allies understand and appreciate the risks posed by an 
unchecked Kremlin propaganda campaign.
    One thing is clear. Meeting this challenge will certainly 
not be easy. A nondemocratic government in Russia is able to 
devote nearly limitless resources to spreading lies and sowing 
confusion, disinformation and division.
    But the stakes are high and acting sooner rather than later 
will make a daunting task a little easier and much more 
effective over the long run.
    I look forward to hearing our witnesses' views on this 
challenge and their ideas about how we are going to deal with 
it. So thank you again, Mr. Chairman, for calling this hearing.
    Chairman Royce. Thank you, Mr. Engel.
    We will begin with Mr. Peter Pomerantsev. He is the senior 
fellow to the Transitions Forum at the Legatum Institute in 
London.
    His writing focuses largely on 21st century propaganda. It 
is featured regularly in the London Review of Books and the 
Atlantic Financial Times in foreign policy and elsewhere. He is 
author of the ``The Menace of Unreality: How the Kremlin 
Weaponizes Information, Culture and Money.''
    We will hear next from Ms. Elizabeth Wahl. She formally 
worked for the U.S. Branch of RT Television until her 
resignation last year on live Russian television in protest to 
President Putin's government and their distorted coverage of 
the conflict in Eastern Europe. Ms. Wahl is now a freelance 
journalist and public speaker.
    Ms. Helle Dale is the senior fellow in public diplomacy 
studies for the Heritage Foundation where her work focuses on 
the U.S. Government's institutions and programs for strategic 
outreach to the public of foreign countries.
    Ms. Dale's career started in journalism where she worked 
for both domestic and foreign publications as well as print and 
electronic media.
    And I would also like to welcome the Vaclav Havel 
Journalism Fellowship Program, an initiative of Radio Free 
Europe, Russia Liberty and the Ministry of Foreign Affairs of 
the Czech Republic.
    The Vaclav Havel journalism fellows in attendance today, 
and they are in the second row there on the left, are from 
Belarus, from Moldova, Ukraine, Georgia, and Russia who have 
been targeted, these particular journalists have been targeted 
by the Kremlin and have been victims of Putin's assault on free 
media, and we thank them for being with us here today.
    And without objection, the witnesses' full prepared 
statements will be made part of the record and members will 
have 5 calendar days to submit statements and questions and any 
extraneous material for the record.
    And so I would encourage you, Mr. Pomerantsev, if you would 
like to summarize your remarks for 5 minutes lay out the case.
    Then we will go to Ms. Wahl and Helle Dale and then we will 
go to our members for questions.

STATEMENT OF MR. PETER POMERANTSEV, SENIOR FELLOW, THE LEGATUM 
                           INSTITUTE

    Mr. Pomerantsev. Thank you very much for having me here.
    Russia's information war--we have been hearing these words 
a lot lately. Russia has launched the most amazing information 
warfare blitzkrieg we have ever seen since Supreme Allied 
Commander General Philip Breedlove after the annexation of 
Crimea.
    We are losing the information war, complained the British 
head of the House of Commons' Culture and Media Committee as 
the Kremlin international media was launched in London.
    Information war is now the main type of war, argues Dmitry 
Kiselyov, the infamous Russian TV presenter and Kremlin media 
boss who also likes to remind the world, and it shows, that 
Russia can turn the USA into radioactive ash. But what do we 
mean when we say information war?
    Because if we mean propaganda as mass persuasion, 
propaganda in the sense of some sort of geopolitical debate 
where each side tries to convince the other it is right, well, 
then we don't understand the real threat of the Kremlin's 
information war at all.
    To understand what it actually is, let us go back to 1999. 
Back then, Russian Defense Minister Marshal Igor Sergeyev 
admitted the Kremlin could never match the West militarily and 
needed to find, in his words, revolutionary powers and 
asymmetric responses to compete.
    Look at it from the Kremlin's point of view. NATO is 
undefeatable on the battlefield. The West has a much stronger 
social and political system--democracy based on openness and 
competition.
    But what if the Kremlin could bypass NATO militarily, make 
war without ever, officially at least, firing a shot? What if 
it could use the very openness of democracy's open markets, 
open culture and, very importantly, open information against 
us?
    So over the 21st century, Russian military theorists 
developed a theory of what they called information 
psychological or hybrid war--a mix of media, economic and 
cultural warfare with a dab of covert military action.
    We saw an early example of this is Estonia in 2007 when 
Estonian authorities decided to move a Soviet war memorial from 
the center of the city. Russian media, which is very widely 
available in Estonia, went into a frenzy, accusing the 
Estonians of fascism.
    Russian vigilante groups started riots in the center of 
Tallinn. A massive cyber-attack disabled Estonia's Government 
and banking sectors.
    Moscow was sending a message, despite membership of NATO 
and EU, that Estonia and all other frontline states were still 
vulnerable and the Kremlin could cripple them without giving 
Estonia a chance to invoke NATO's Article 5.
    The aim was not just to humiliate Tallinn but show that 
Western and, specifically, American promises of security are 
empty and once the NATO alliance has been undermined and 
American influence weakened, then the Kremlin will have a 
stronger hand to play around the world.
    Since 2007, the Kremlin's information psychological 
strategy has expanded. The Kremlin is now bankrolling and 
lending political support to both far right and far left 
parties in Europe while using open markets to make whole 
countries dependent on its money and energy.
    Unlike their Soviet predecessors, this regime will work 
with anyone as long as they help create stability in their home 
countries. The Kremlin is also putting out its message in 
multiple media 24/7.
    Russian language media reaches 30 million Russians outside 
of Russia, a lot of them in EU and NATO states. The Kremlin has 
invested hundreds of millions into foreign language media.
    Russia Today (RT) broadcasts in English, Spanish, German 
and Arabic. There is the web and radio service Sputnik, while 
the Kremlin also funds troll farms, regime-funded companies who 
spread messages online in social media and comment sections.
    Conspiracy theories, disinformation and fake news are a 
staple in these media claims that the U.S. invented Ebola as a 
weapon or re-editing interviews with Ukrainian rabbis to make 
it seem contrary to what they actually said, that there is a 
threat to the Jewish community in post-Maidan Ukraine, or even 
planting stories that the Rand Corporation is advising the 
Ukrainian Government on how to ethnically cleanse east Ukraine.
    The ultimate aim of the Kremlin's international media is 
not to make anyone like Russia. It is not PR or necessarily 
engaged in fact-based journalism.
    Instead, information is used to sow divisions, demoralize 
and disorganize--to weaponize information. After Malaysian 
Flight MH-17 was shot down over eastern Ukraine by Russian 
missiles last summer, Russian media spewed out scores of 
outlandish stories, blaming Ukrainian fighter jets, claiming 
the plane had deliberately taken off from Amsterdam carrying 
dead bodies.
    Their aim appears to have been to trash the information 
space with so much misinformation that a conversation based on 
actual facts would become impossible. This is not merely an 
information war but a war on information.
    If the very possibility of rational argument is submerged 
in a fog of uncertainty, the public will give up trying to 
understand what happened. Trust, the key ingredient of 
democracy, is destroyed and the strategy is working.
    Recent research in Ukraine and the Baltics shows that 
audiences exposed to both Russian and local media end up not 
trusting anyone. In Germany, 43 percent do not trust anything 
they read on Ukraine.
    Throughout Europe, conspiracy theories are on the rise and 
in the U.S. trust in the media has declined. The Kremlin may 
not always have initiated this phenomena but it is fanning 
them.
    And I would like to finish with the fact it is not just 
Russia and the Kremlin doing it. The Chinese are starting a 
similar tactic in Asia. We see how ISIS works in the Middle 
East.
    This is a global problem. Thank you.
    [The prepared statement of Mr. Pomerantsev follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
        
                              ----------                              

    Chairman Royce. Thank you.
    Ms. Wahl.

 STATEMENT OF MS. ELIZABETH WAHL, FORMER RT ANCHOR, FREELANCE 
                   JOURNALIST/PUBLIC SPEAKER

    Ms. Wahl. All right. We are dealing with an organization 
that doesn't play by the rules, where the facts on the ground 
and the reality that citizens face as a result of them don't 
matter, at least when that reality clashes with Russia's 
foreign policy agenda.
    In that case, one or more alternative realities are pushed, 
anything to deflect from the facts and confuse the public.
    Of course, Russia has a history rich in propaganda but for 
a while it seemed to lie dormant as many hoped that a reset in 
diplomatic relations meant a change in direction.
    But during the war in Ukraine, the Russian-funded 
television channel RT was mobilized as a weapon to manipulate 
people into believing half-truths and lies skewing reality in 
the Kremlin's favor.
    And I saw firsthand how this was orchestrated. When the 
protests erupted in Maidan Square it was made to look not like 
a popular uprising but comprised mostly of bloodthirsty neo-
Nazis and fascists.
    Through misleading language, RT pinned the blame on the 
West for fomenting unrest in Ukraine. When Russian troops 
invaded Crimea, Russian media looked the other way. Even 
Western media organizations indirectly gave strength to 
Russia's denials in the struggle to maintain balance amid the 
confusion.
    But behind the deliberately confusing rhetoric were 
essential facts. Russia had invaded a sovereign country and was 
lying about it. And when it became impossible to deny the 
presence of what later became known as the little green men, 
they were hailed as volunteers compelled to rescue fellow 
Russians from Ukrainian fascists.
    Through denial and deception, the Kremlin was able to shape 
reality or at least make it difficult to uncover what that 
reality really is. With the international community stunned and 
incapacitated, Russia sent in tanks, troops and weapons.
    Crimea was annexed and Russian-backed separatists gained 
ground in eastern Ukraine. The disinformation tactics employed 
by RT during the war in Ukraine I saw used before, though not 
as vigorously and strategically.
    The most celebrated host at the channel holds staunch anti-
Western views where deranged conspiracy theories are given a 
platform. It didn't matter how credible the voices were as long 
as the underlying message was reinforced--that the U.S. and 
West is crumbling, corrupt and hypocritical.
    There was a running joke among some employees about 
adopting this mind set by drinking the Kool-Aid. I saw how 
employees and viewers eventually drank it all up. It is the 
result of being engrossed in an environment where hating 
America was rewarded.
    It is a mentality that is perpetuated by Internet 
personalities that gain followers and a sense of belonging by 
spewing hate and twisting the truth. One of the many things I 
came to find troubling was the surprising amount of people 
prone to being manipulated.
    Part of it is that with this explosion of information 
constantly generated online it had become difficult to tell 
fact from fiction, to sift through it all. Another part of it 
is the trend of thinking it is hip to believe in any anti-
establishment alternative theory.
    Russia is aware of this population of paranoid skeptics and 
plays them like a fiddle. Those that challenge any narrative 
against Russia are branded CIA agents, of being puppets for 
neo-conservatives intent on reigniting a cold war and face the 
ire of seemingly countless paid and volunteer online trolls.
    I was accused of being all of these things and faced the 
constant stream of cyber hate for being perceived as such. Now, 
this is just a minor example of this new propaganda technique 
in action.
    The Russian bosses say that the organization is simply 
providing another perspective, one that is ignored in Western 
media. The implication there is that there is no such thing as 
an objective truth.
    But let us not get duped by this falsehood. Someone is 
responsible for pulling the trigger that killed Russian 
opposition leader Boris Nemtsov. Someone is responsible for 
launching the BUK missile that downed MH-17, killing all 298 
passengers on board.
    This is not open to interpretation because behind the 
strategically false finger pointing there is a true story and 
in both cases the story is still unclear and there is someone 
that prefers it stays that way.
    We shouldn't let it slide. We need to take notice and take 
action and the best weapon against this rapidly expanding 
propaganda campaign is the truth. We just need to fight for it.
    We fight it by refusing to look the other way when a lie is 
told and by spreading awareness about this new disinformation 
stream that is polluting the airwaves and online discussions 
that shape our perception of world events.
    We fight it by thinking before clicking, tweeting or 
sharing an article that aims to deceive, and while it is true 
that the truth can be difficult to uncover, we should seek to 
find it, spread it and learn from it whatever that truth may 
be.
    [The prepared statement of Ms. Wahl follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
        
                              ----------                              

    Chairman Royce. Thank you, Ms. Wahl.
    Ms. Dale.

   STATEMENT OF MS. HELLE C. DALE, SENIOR FELLOW FOR PUBLIC 
               DIPLOMACY, THE HERITAGE FOUNDATION

    Ms. Dale. Chairman Royce----
    Chairman Royce. Helle, could you just hit the button there?
    Ms. Dale. Hit the button. I will start again.
    Chairman Royce, Ranking Member Engel and distinguished 
members of the committee, thank you very much for putting 
together this timely and very important hearing today and for 
inviting me to speak.
    The views I will express are my own and should not be 
construed as representing the official position of the Heritage 
Foundation.
    I come before you as someone who has studied U.S. public 
diplomacy for years and as a former journalist. I have 
interviewed enough dissidents of Cold War days to appreciate 
the profound importance and the moral obligation we have of 
reaching citizens of countries under authoritarian or 
totalitarian control with truthful information.
    The recent past has shown that it does make a difference, 
sometimes changing the course of history itself. Unfortunately, 
after the end of the Cold War the United States all but 
disarmed itself in the battle for hearts and minds in Russia 
and its neighboring countries.
    It was assumed that the West had won the ideological battle 
and strategic decisions were made in public diplomacy and 
international broadcasting that turned out to be huge mistakes.
    Today, we are scrambling to increase broadcasting and 
digital capacity to counter Russian disinformation. The 
relevant U.S. agencies in this information war are, of course, 
primarily the Broadcasting Board of Governors, or the BBG, 
which oversees all U.S. civilian international broadcasting, 
the State Department and to some extent the Department of 
Defense.
    To give you a preview of my conclusion, the U.S. Government 
must ramp up its international broadcasting capacity but it has 
to be done through the reform of the BBG. At present, this is 
our most important tool in this information war.
    The BBG has over the past decade shut down many language 
services and radio transmissions which now turn out to be 
critically important. The motivation has been budget 
constraints and the desire to focus on the Internet and, at 
times, satellite television.
    In 2008, VOA ended its broadcasts in Russian the very week 
Russia invaded Georgia. After the invasion, the decision was 
not reversed.
    Short wave radio was abandoned and whatever English 
language content there was to be rebroadcast in Russia had to 
be negotiated with Russian local AM and FM stations.
    Moscow finally shut down all VOA broadcasting in 2014. But 
the United States has, as we heard, allowed Russian media to 
flourish within our own borders in the name of freedom of 
expression.
    RT has impressive television studios right here in the 
nation's capital. The contrast could not be more stark. The 
conditions attached to rebroadcasting of VOA English content to 
Russia were heavy handed and I just want to give you a short 
personal anecdote.
    I was invited on a program, a foreign policy discussion at 
VOA in 2012. It was just before the Russian Presidential 
election and I asked if we were going to discuss it and I was 
told no, the management had told them, the journalists, that 
they could not discuss the Russian election because Voice of 
Russia had threatened to cancel its agreement with the BBG if 
the U.S. Government allowed VOA to go ahead with a discussion 
of the Russian election.
    Now, why this mattered so much is hard to understand but a 
global audience were thereby deprived of a discussion of the 
subject.
    The management at VOA, the producers, followed orders from 
Moscow and it should be mentioned that this is the same 
management that often fiercely resists any editorial influence 
from the U.S. Government itself.
    Currently, the only content offered from VOA in Russian is 
Internet-based Skype video and use broadcasts as well as VOA's 
Russian language Web site. Now, it is argued that the Internet 
is the best way to reach Russians because they have a high 
level of Internet connectivity as an advanced society.
    Yet, VOA's Russian service Web site ranks number 3,828 in 
Russia, which does not compare very well with RT's influence 
here in the United States where it is something like number 64.
    Radio Free Europe and Radio Liberty, the U.S. Government's 
surrogate broadcasters, have run into the same problems as VOA. 
They also took a major beating in the international press in 
2012 when the management of Radio Liberty fired most of its 
Moscow staff.
    I can see I am running out of time. I just wanted to 
mention finally that we are trying to play catch up in reform 
legislation and in the BBG's strategy paper produced in 2015. I 
mean, sorry--for 2015, 2016 on countering a revisionist Russia.
    But we are playing catch up here and I would be happy to 
discuss that further with you.
    [The prepared statement of Ms. Dale follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
        
    
                              ----------                              

    Chairman Royce. Thank you. Thank you, Ms. Dale.
    One of the questions I am interested in here is that 
usually around the globe people hunger for information and 
especially when they think they are being denied facts.
    But what seems to be happening in Russia is that people 
begin to presume that these conspiracies are in fact true as 
they are, you know, introduced to this on a daily basis.
    They repeat it over and over and over again and suddenly 
the conspiratorial theories begin to take on a life of its own, 
and I wondered if maybe the panelists could explain the factors 
that make this Russian disinformation campaign seemingly so 
effective from some of the polling I have seen inside Russia in 
terms of the credibility the people have to information which 
logic would contradict.
    But also I was going to ask you a little bit about the 
platform that it provides for fringe and radical views, not 
just in Russia but worldwide, as sort of the extreme fringe as 
given a platform for what otherwise would not be considered 
reputable television, you know. Most broadcasts wouldn't have 
on the types of voices with these conspiratorial theories.
    But maybe you could explain the process that RT undertakes 
to select its experts, and I will just turn it over to the 
panel for your responses.
    Ms. Wahl. That is an interesting question, selecting the 
experts, because that word, I think, is used loosely in Russian 
television. Essentially, anybody that is an expert is somebody 
that is willing to toe the Russian line and to--I mean, they 
could be from the far left, they could be from the far right, 
they could have unconventional deranged theories.
    It didn't matter, and sometimes the producers would scour 
the Internet for these experts. So what qualifies as an expert 
it is kind of murky what that is.
    And why it is effective, I think you had mentioned that it 
provides this voice for fringe voices, extremists and it works 
because it provides a place for these people, a place where 
these people can congregate and feed off of each other's 
biases.
    It is almost like a community that is almost like a cult, I 
would say, that is formed online and they mobilize and they 
feel like they are part of some enlightened fight against the 
establishment and they find a home.
    They find a place where they are heard and they find a 
sense of belonging. They find an outlet where they can--where 
they can--a platform to voice their deranged views.
    And I know that formally of Radio Free Europe Mr. Lack, who 
has since departed, had gotten a lot of criticism for comparing 
Russia today and Russian propaganda to ISIS propaganda.
    And while yes, there is a strong difference--we are talking 
about a terrorist organization versus a government--you know, a 
nation state, I think he did have credence and in comparing the 
strategy that is there by using the Internet to mobilize people 
that feel displaced, that feel like they have been on the 
outskirts of society and give them a place where they can find 
a sense of belonging and maybe make a difference in their own 
way, and it is a problem and we see that it is effective.
    We see that they are shaping the discussion online, on 
message boards, on Twitter, on social media. And the Internet--
you know, we thought that it would be this place where, you 
know, it is wonderful in a lot of ways because a lot of 
different viewpoints and a lot of different people have a voice 
like never before.
    But, unfortunately, it has provided a forum where 
disinformation, false theories, people that are just trying to 
make a name for themselves, bloggers or whatever, that have 
absolutely no accountability for the truth are able to rile up 
a massive amount of people online for----
    Chairman Royce. Well, I think what is interesting about 
it--I mean, the use of raw violence, which they do a lot of on 
YouTube, 1.4 billion hits is a lot of hits.
    Ms. Wahl. Yes.
    Chairman Royce. So people will go to the use of raw 
violence and then that will be used as, you know, part of a 
thesis on some conspiracy theory that then is played out. I 
wondered, Peter, your take on this.
    Mr. Pomerantsev. This question--you have hit on one of the 
key issues here, which goes--takes us all the way through the 
problems at stake. They are not fringe anymore, these groups. 
We are talking about a France where Jean Marie Le Pen's far 
right party is surging in the polls.
    We are talking about a Hungary where Jobbik, the far right 
party, is rising, rising. We are talking about 20 percent of 
parliamentarians in the European Parliament having what we used 
to think were fringe, very pro-Russian views.
    Among the people who vote for these parties there is a lot 
of people who believe in conspiracies because they are working 
on a similar thing.
    Conspiracies happen when people don't trust the 
institutions around them, don't trust Parliament, don't trust 
media. Everyone is lying to you? Then there must be a shadowy 
hand. So the Kremlin is in this loop.
    It is pushing out more conspiracies to fan that audience. 
They are funding these parties. You know, we know that the 
Kremlin is funding Jean Marie Le Pen in France. These are not 
fringe parties.
    This is actually now becoming the mainstream and this is 
very, very frightening. Conspiracy is--what is conspiracy? Sort 
of a linguistic sabotage on the infrastructure of reason.
    You know, you can't have a reality-based discussion when 
everything becomes conspiracy. In Russia, the whole discourse 
is conspiracy. Everything is conspiracy. When a genuine 
opposition person like Alexander Navalny emerged in Russia, the 
first thing the Kremlin does?
    He is one of ours--he is a conspiracy as well. Don't 
believe in him. Sort of about destroying belief in anything. 
When you have no believe in truth then you can't believe in 
anything.
    But also more insidiously than that, look, our--I am going 
to get very grand now--our global order is based on the idea of 
reality-based politics.
    If that reality-based sort of, you know, base is destroyed 
then you can't have, you know, international institutions and 
international dialogue. I mean, I remember a quote from, I 
think, a Franciscan monk after the Second World War.
    He is, like, lying is not a form of communication. It rids 
people of their right to live in reality and makes reality-
based politics impossible. This is a very insidious trend.
    Chairman Royce. Thank you, Peter. Let me go. My time has 
expired. I am going to go to Mr. Engel of New York.
    Mr. Engel. Thank you, Mr. Chairman.
    Let me start with you, Mr. Pomerantsev. Some of the 
distortions coming out of the Kremlin are just absurd. For 
instance, blaming Ukraine or the United States for the shooting 
down of that Malaysian Airlines flight over Ukraine.
    But as three of you have mentioned, we know these messages 
are taking hold. Can you give us a bit more detail about the 
major messages being driven by Moscow and describe how those 
messages are affecting public opinion among Russian speakers in 
the frontline countries?
    And could you also tell us what your sense is of the way 
our other European allies are looking at the problem? Do you 
they not see the problem--our Western allies?
    What steps have other governments taken to respond to 
Russian propaganda and is it having any great effect?
    Mr. Pomerantsev. That is a lot of questions. So, listen, I 
just read a very interesting study of Estonia where actually 
got into the weeds of who believes what, right.
    So there is a certain amount of the population who just 
watch Russian TV and they buy the Russian lie. The message has 
been changing. First, it was a fascist revolution. Then it was 
a NATO conspiracy.
    Now it is the Ukrainians who are the fascists. It is always 
changed and changing. It is not about establishing a truth. It 
is about coming up with crazier and crazier stories, which are 
meant to be emotionally engaging.
    The Russian deputy minister for communication openly says 
that truth in journalism doesn't matter. It is all about, you 
know, coming up with fantasies that are powerful.
    So the message changes but, you know, it is clear. It is 
the West's fault. Ukraine is a zone of chaos. Russia is a zone 
of stability. That is a very big one. You know, like, Russia 
equals stability, Ukraine equals chaos.
    Everywhere that America goes equals chaos and so on and so 
forth. So there is some interlocking narratives but they shift. 
But what is interesting in Estonia--so there is a small 
percentage of people who just watch that and believe in it.
    A bigger one and a more active one, the younger people, 
watch both Estonian and Russian. But they don't just end up not 
believing in anything.
    They just end up completely confused and completely passive 
and so this really challenges some old ideas that if we could 
just get the truth out there like in the Cold War we will win. 
It is a much more intricate challenge nowadays.
    We have to not only get the truth out there, we have to win 
trust, which might mean a much cleverer and deeper and actually 
sort of more thoughtful form of programming to make.
    As for European countries, it is a real mix. The frontline 
countries are, obviously, very alarmed because for them it is 
an existential threat. Britain is aware. Germany is aware.
    I think as you go further and further they care less and 
less, and some countries are far more interested in their 
financial relationships with Moscow and don't perceive Eastern 
Europe maybe as their problem. But hopefully that is shifting.
    Mr. Engel. Ms. Wahl, you--as you mentioned in your 
testimony you have seen Russian propaganda up close. You left 
Russia Today because you refused to be a mouthpiece for the 
Kremlin and since then you yourself have been a target.
    You mentioned propaganda. Since that time we have seen 
Russia Today open up shop in more places round the world. Can 
you give us some detail about the strategy behind the growth of 
Russia Today around the world and the specific methods used by 
Russia Today so-called journalists to advance Moscow's message?
    Ms. Wahl. Right, yes. It is true that since my resignation 
that Russian media has only grown. There was a channel that was 
opened up in London and Berlin.
    There was a video organization called Ruptly that was 
formed. Sputnik also launched--it is also funded by the Russian 
Government as in dozens of--dozens of cities throughout the 
world.
    That is rapidly expanding, and we are seeing a lot of--a 
lot more resources being devoted to Russian propaganda. 
Meanwhile, as we had mentioned earlier, before independent 
voices has been--have been shut down and, well, what is behind 
it?
    Mr. Pomerantsev touched on it before. It is that just 
putting this narrative out there that the West is really the 
evil hypocritical corrupt player here and that for far too long 
the West has been dominating the conversation and they are 
inserting themselves now as an alternative, as somebody that is 
telling the other part of the story.
    But I saw that that, indeed, was not the case, that this 
was actually manipulation. And I guess another thing about 
conspiracy theories it seems like a bizarre thing. I mean, who 
believes in these bizarre conspiracy theories?
    And I think what is interesting is that it doesn't really 
matter. You don't need to believe the conspiracy theory as a 
whole to be confused as to what is really going on. I am going 
to use my experience as an example.
    The narrative that RT put out about me and kind of their 
friends was that I was simply just a puppet intent on 
reigniting the Cold War--that, basically, that I had had no 
mind of my own and strings were being pulled and that the 
intent there is that it was some nefarious intent to reignite a 
cold war.
    Now, a lot of people hear that and it seems farfetched and 
it is not true. But if you--by just putting that narrative out 
there and by the trolls retweeting it and repeating it so 
often, it becomes a thing.
    It becomes part of the discussion. It becomes part of the 
discourse, and after a while you have to address it because it 
is out there. The seeds of doubt have already been planted and 
first impressions matter.
    And even if you don't believe that I was a puppet in that 
way, it still shaped the narrative in terms of casting doubt on 
my credibility, on my motivations, on what really went on.
    So that is kind of just a small example of how conspiracy 
theory works. You know, you don't have to necessarily believe 
that 9/11 was an inside job completely but if you have that out 
there in so many other nefarious plots a viewer gets kind of 
confused and thinks maybe the truth is somewhere in the middle.
    Maybe it wasn't orchestrated but surely the West was 
instrumental in letting it happen in one way or another. So I 
think that is one way that conspiracy theories work is that it 
just causes chaos and confusion and even people that are 
seemingly logical and not prone to this type of manipulation 
are--I see that they are affected by it because if you see the 
constant stream of chatter online it does kind of start to get 
to you.
    And I saw that there, especially within RT where you are 
constantly exposed to these articles and this anti-American, 
anti-Western rhetoric.
    You are kind of in this vacuum where you kind of think 
whoa, you know, maybe Russia has a point. Maybe there is some 
truth there that is to be uncovered.
    And so I think it is important to kind of come to terms, 
and it is bizarre and it is kind of strange to grasp but these 
strange conspiracy theories that are put out there really are 
aimed at just disrupting and deceiving and causing chaos so 
nobody really knows what the truth is.
    Chairman Royce. We will go now to Dana Rohrabacher of 
California.
    Mr. Rohrabacher. Well, having been a former journalist 
myself and know about the way our journalist profession works 
in the United States, and I have been very interested in your 
analysis that truth is the way that we should fight this threat 
and I agree with that.
    I would hope that we are honest enough with one another to 
realize that we have major flaws in our dissemination of facts 
and information in the United States as well.
    So the truth may well be what we have heard today in the 
testimony, that Russia is engaged in a major effort to 
basically support its own policies and promote changes and 
effects on other populations that further the interests of 
Russia.
    I would be surprised if that wasn't the case. Let me just 
note that so I can accept everything that was said here I would 
have preferred, Mr. Chairman, that we had at least one other 
person to balance out this in a way that perhaps could have 
compared our system to the Russian system and to find out where 
that truth is, just how bad that is.
    There are, by the way, I am convinced there are people here 
in the United States who want us to have the same status toward 
Russia today as we had during the Cold War and they still 
believe that this--we should be in a Cold War status and that 
Russia is today the same as it was under communism and that 
Putin is Brezhnev, if not Hitler.
    And I don't believe that necessarily those people who are 
promoting that concept are any more accurate than the Russians 
that you are now talking about presenting their concepts.
    You know, I--frankly, I think there is a little bit of 
fanaticism on both sides that don't hear both sides and if we 
are going to have peace in this world we have got to be 
disciplined ourselves in searching for that truth.
    And I just say that when I was a newsman I remember 
covering stories and I don't want to be too--I won't name the 
exact publications but I know major publications that would not 
cover a story that made us Republicans look good and all the 
journalists who worked for some very strong newspapers in 
southern California were just basically propaganda for the 
liberal left position in our political spectrum.
    And I saw that and, yeah, so we have bias here and they 
have bias there and let us find out what the truth is and I 
would have preferred, as I say, Mr. Chairman, would have had at 
least someone to talk about that, to give us that type of 
analysis.
    But I am very happy that we have this information being 
presented to us today. Let me just ask this about, you know, 
the stories. What caused you to leave RT? RT is, obviously, a 
Russian propaganda outlet. I mean, obviously, it is.
    I mean, we would expect it to be, and we have private--that 
is why we have private media in the United States so we don't 
have our Government setting a policy for what the information 
will flow.
    But I will have to say that in terms of this whole conflict 
in Ukraine, when I--almost everybody I know no one ever starts 
the scenario about what was going on in Ukraine with the 
violent overthrow of an elected President. They always started 
with the scenario where Russian troops came in.
    I happen to oppose any idea that Russian troops should ever 
have been introduced in that country but I also recognize that 
a democratically-elected President was violently overthrown in 
order to achieve certain political objectives in that country.
    And so I would hope that we search for the truth and that 
we understand that all of the horrible things that you are 
talking about today and the direction of the Russian Government 
out to get--make sure its interests are being taken care of by 
propaganda offensive, we understand that.
    But that we have the discipline to be honest and seek the 
truth ourselves and not just fall into this Hitler--Putin is 
Hitler and this is--and Russia hasn't changed since the Cold 
War.
    We don't need another Cold War. We don't need to be--to 
take such belligerent stands and I will tell you I find that 
belligerence on both sides of this fight.
    Ms. Wahl. I absolutely--can I respond to that?
    Mr. Rohrabacher. Sure.
    Ms. Wahl. Okay, and I absolutely hear what you are saying. 
I mean, I certainly don't want another Cold War. I think--I 
can't--I bet you most people in this room don't want another 
Cold War, and I hear what you are saying there, that there is--
and I think what it--I am not arguing that our media here is 
perfect.
    But I think what I am going to have to push back on with 
your statements is that in a way that kind of rhetoric kind of 
equates our media here--Western media--with what is happening 
in authoritarian governments like Russia.
    It is providing this false equivalence that simply just 
does not--they do not go hand in hand. There is--there is 
essential differences, and Russia, yes, they look at our media 
within the U.S. and they see it in disrepair.
    They see, you know, Fox News is known as being 
conservative. MSNBC is known as being liberal, and therefore 
everything is a matter of perspective. But there is a 
difference. There is a difference in that I think it goes to 
intent.
    I think that instead of it being maybe a Republican 
viewpoint or a liberal viewpoint, what have you, whatever, that 
there is an intent to actual--to actually advocate and 
manipulate a war for an authoritarian leader's foreign policy 
objectives and actually fabricating facts, twisting truths, 
making up lies. And I understand that, yes, the media is not 
perfect.
    But to compare the two and to say that they are morally or 
ethically equivalent in any way I think is actually giving some 
strength to Putin and this propaganda machine and I think he 
manipulates that mind set and the ability for us here in the 
United States to be critical of our own media and that is 
another essential difference because here we can be.
    Here, we can call out--I mean, look at Brian Williams. He 
makes a little flub, he is gone. He is assassinated on Twitter.
    Mr. Rohrabacher. Truth--your point is taken.
    Ms. Wahl. It is just not--and I do understand what you are 
saying and I am not here to make excuses for our own media or 
say that it is perfect.
    But I think that by saying or making any kind of moral 
equivalence that we are giving power to Russian media and the 
growing machine. So I think we just have to be cautious in that 
regard.
    Chairman Royce. We will go now to Mr. Gregory Meeks.
    Mr. Meeks. Thank you, Mr. Chairman, and thank you, Ms. 
Wahl, for your push back.
    I just, on this subject, will say that I think you are 
right in the sense that I wouldn't have any problem with RT if 
there were other media outlets in Russia, you know, various 
perspectives and that is what, you know, I think is 
tremendously different in the United States.
    You know, we have--you know, I listen to Fox, as you said, 
and I think that is propaganda and the other side listens to 
MSNBC.
    But at least you have two or three and you have other 
alternatives of which you can listen to so that you can then 
make your determination as to where and what is--you know, 
where you are for.
    Whereas, from where I am understanding, there is no 
government-ran institution. RT seems to be financed exclusively 
by the government which means that they can exclude anything 
that does not favor the government.
    We would have a tremendous problem here if in fact, for 
example, you know, what we have dialogue right now, whatever 
side, whoever is the President of the United States. If Barack 
Obama was able to just put out his side without anything else, 
you know, we would be up in arms in this country.
    I know when George Bush was President if the paper just 
only put out George Bush's side I would have had a big problem. 
The fact of the matter is you can have the argument on both 
sides.
    You can't go after the press and, you know, and I don't 
like some of the things that the press writes but they have the 
right to write it based upon our Constitution and I think that 
is a major difference.
    So for me, as opposed to focusing on because they, Russia, 
and how they run is different than what we do in the United 
States and I understand that CNN, for example, international 
can play inside of Russia but it is not in the Russian language 
so it is only in English so therefore people don't understand 
that.
    So my then concern will then go to what takes place outside 
of Russia, I think, is where Mr. Engel was going as far as the 
influence so that other areas can have equitable opportunity to 
listen to all sides.
    Russian TV is there, can we--do we have other, whether it 
is local television from, you know, maybe in Moldova or in 
Georgia where they are countering or have more freedom to say 
what the other side is.
    Do we have America--what can we do to make sure that that 
choice that I am talking about that we have in America, 
particularly within the European countries, that we have--that 
they have the choice and are not listening to one thing but 
multiple things.
    And I am not saying cut out Russia or RT. I am saying make 
sure they have all of the evidence so that they can then make a 
determination of what they believe or don't believe as we do 
here.
    Mr. Pomerantsev. Well, I will take it first if that is 
okay.
    I mean, I think--I think actually once upon a time we 
actually intuited the right idea when--you know, when the BBG 
had Radio Liberty, had Radio Svoboda--the Russian branch of 
RFE.
    The concept worked there, which is the right concept, as 
surrogate news. Not us believing in the truth. That is always--
you know, if you've got ``America is evil'' in their heads you 
are not going to believe anything.
    Mr. Meeks. That is correct.
    Mr. Pomerantsev. There is going to be wall there. So it is 
about going to local issues, finding local voices, local access 
and it is not just about truth.
    I really is about developing a different level of what 
journalism is. It is almost like the methodology because there 
is--look, Ukraine, Moldova, you have got oligarch channels, you 
have gone--you know, it is like one--do you think Fox News is a 
bit--is a bit sort of, you know, slangy and truthiness? There 
it is crazy.
    You know, like that is--what they lack is not another 
opinion. There is a lot of bullhorns there. What they lack is 
that central pillar of education and understanding of how you, 
you know, think rationally, critically, what evidence is.
    So it is both education and this kind of tradition that 
Radio Svoboda represents and it still represents--it is just so 
underfunded--of finding local voices who, you know, spread that 
culture. So I think that is the secret. It is going local and 
much deeper.
    Ms. Dale. May I make a remark? I think you are absolutely 
right that the diversity of views and the diversity of news is 
what we thrive on in this country and we are fortunate that we 
can make up--listen to whatever we want and make up our own 
mind about what we think is the truth and oftentimes a lot of 
people reporting from different perspectives will arrive at 
something that looks like the facts.
    Well, in Russia and in the countries--areas that they 
occupy like eastern Ukraine they were shut down, the 
independent media--any media that is not controlled by them the 
moment that they move in and that is how you persuade a local 
population of one point of view.
    It permeates the airwaves to a degree we don't see here at 
all and can't probably comprehend and I hear this from 
Ukrainians on the ground.
    The moment the Russians come into a town you will start to 
hear different points of views from their friends and family 
who live there because suddenly they have been presented with a 
set of facts which are only from one perspective and that is 
the one of the Russian Government.
    I want to commend Peter for saying that the journalists and 
raising the level of journalism is important. We can support 
journalists.
    As far as journalistic outlets--trained journalists--in 
Ukraine the journalists who work in the battle zone don't 
even--many of them don't have any body armor. They don't have 
any helmets.
    They don't--they are not equipped in any way, shape or form 
for reporting from front lines and yet they are trying. We here 
in the United States have the means to support them materially 
and with training and that, I think, would be--establishing 
some credibility and some credible voices that trust in the 
journalistic enterprise that is missing as something that we 
need to work on to interject in Russia, Ukraine and the 
countries that are under its influence.
    Mr. Pomerantsev. Just to be clear, we were talking about 
different bits of Ukraine so my colleague is talking about the 
Ukraine bit that is occupied by the Russians. I was talking 
about the rest of it, which is pretty chaotic as well in other 
ways.
    Chairman Royce. We go to Mr. Scott Perry of Pennsylvania.
    Mr. Perry. Thank you, Mr. Chairman. I apologize for not 
being here up front.
    I was next door at another committee hearing, and I hope to 
get to some questions but I think it is important for the 
record to give some people a sense of history they might not 
know because we have people in this country and around the 
world that are apologists for what Russia and other similar 
nations and viewpoints are doing and so I think it is important 
to reflect on the past and know that this has been going on--
this is nothing new.
    And so I am just going to read--this is out of a book 
published in 1986, I think, called ``The Harvest of Sorrow'' 
and it is in regard to the terror famine forced on Ukraine by 
the USSR and Russia.
    So the first passage is--that I will read,

        ``And even more striking or at least a more important 
        aspect of the psychopathy of Stalinism may be seen in 
        the fact that no word about the famine was allowed to 
        appear in the press or elsewhere. People who referred 
        to it were subject to arrest for anti-Soviet 
        propaganda, usually getting 5 or more years in labor 
        camps.''

    And then,

          ``Hitler approvingly calls the big lie. He knew that 
        even when the truth may be readily available, the 
        deceiver need not give up.
          ``He saw that the flat denial on one hand and the 
        injection into the pool of information of the corpus of 
        positive falsehood on the other were sufficient to 
        confuse the issue for the passively uninstructed 
        foreign audience and to induce acceptance of the 
        Stalinist version of those actively seeking to be 
        deceived,''

and I have got a few more here that I found interesting.
    This is in regard to a gentleman named Walter Duranty who 
reported or failed to report or misreported on the famine of 
the time who was working for the New York Times. This passage 
says that

        ``What the American public got was not the straight 
        stuff but the false reporting. Its influence was 
        enormous and long-lasting.''

    Furthermore, regarding Duranty, who was a Pulitzer Prize 
winner for the New York Times based on his work in Ukraine, the 
praise which went to Duranty was, clearly, not due to a desire 
to know the truth but, rather, a desire--to a desire of many to 
be told what they wished to hear and, of course, his own 
motives needed no explaining.
    One communist gave as the reason or one of the reasons for 
the suppression of the truth the fact that the USSR could not 
only win the support of workers in the capitalist countries if 
the human cost of its policies was concealed.
    So I do have a little time for some questions and that is 
just part of the historical perspective of what has been 
refined over time, and Americans and free people around the 
globe must be--must be apprised of this and must be aware of it 
and must be prepared to fight for their freedoms because if 
they don't will fall prey to the same thing.
    I am going to just say Peter, if that is okay with you, the 
question I think I have for you and I apologize if it has 
already been asked, there are reports of think tanks becoming 
puppets of Putin, and I think you have identified the Institute 
for Democracy and Cooperation in New York as one in particular, 
if that is true.
    What is the strategy behind co-opting these think tanks? Is 
the strategy working?
    Mr. Pomerantsev. I think--I think that is--I haven't 
researched that place myself but I think that is quite openly--
from as far as I know and can recall right now is quite openly 
an extension of the Kremlin. I think they do stuff like 
publishing America's human rights problems.
    As Mr. Rohrabacher said, you know, we all have faults so 
let us just play that game. Much more troubling in many ways is 
that because there was such--a little bit of a collapse in the 
funding of Russia studies after the Cold War--there is a famous 
New Yorker cartoon with a homeless man standing on Fifth Avenue 
with a little--you know, a little board saying ``Give money. I 
am a Russia expert''--so there was a collapse in funding and 
the Russians kind of stepped into that breach.
    So a lot of intellectuals were kind of drawn toward that. 
There is the Valdai Forum, which is a very, very clever little 
operation where, you know, the world's Russia experts get 
treated like royalty to get to meet Putin once a year and that 
is sort of like subtly--they know they are being spun but they 
are still being spun.
    There is a game going on there. So it is really about us. 
We collapsed our funding for Russia studies and, you know, the 
Kremlin could step in. It is very important to have. The 
Kremlin understands the values of intellectuals. Stalin 
understood it.
    Lenin understood it. They understand the virtue of having 
these sort of higher up people. More obviously is their 
recruitment of former statesman Gerhard Schroder, who works for 
Gazprom, who has become, you know, Putin's spokesman in Germany 
in many ways.
    In Britain, we have the phenomenon of the Lords on the 
boards, so various peers who, on the one hand, politically they 
are just in the House of Lords. On the other hand, you know, 
they are all working for Russian companies, and they are 
against sanctions against Russia.
    So co-opting elites--intellectual elites, sort of public 
figures, is very much part of their plan and I think it is 
actually sometimes more dangerous than RT because RT is kind of 
out there. We see it.
    You know, it's like, whoa. This is stuff happening that 
where we don't quite see it and in a way far more--far more 
disturbing.
    So to pick up on one thing that you said, that it is not 
new, disinformation is as old as ``The Iliad'' and the Trojan 
Horse--greatest disinformation operation ever. But there is new 
things going on.
    Firstly, the intensity--the information age. The intensity 
of technology makes the power of technology so much more 
pervasive and can do so much more with it. We have created this 
beast called the Internet. We are only just understanding how 
powerful it can be.
    So that really changes the intensity of propaganda that you 
can do. Also, look, there--I mean, you weren't here at the 
start. I tried to explain a bit of Russia's idea of information 
and psychological war.
    They see this as the war of the 21st century, a war where 
you kind of defeat another side in the realms of perception, 
economy, culture without ever actually invading them--just by 
breaking a country without ever--without ever having sent 
troops across.
    I gave the example of Estonia. That is different. That is a 
new idea of war. Usually, you know, the Clauswitzian idea of 
war is, like, you know, war is a continuation of politics. 
Politics ends, you have a war, you go back to peace.
    This is permanent war, you know, and information and 
psychological war is permanent, it is endless subversion, 
endless destabilization. It is a complete rejection of the idea 
of globalization as a win-win rules-based system where we all 
agree to profit from each other and it is an idea that 
integration is actually a way to mess with the other side 
endlessly.
    So we always ask what does Putin want. He sees the 21st 
century that is going to be like this--endless subversion, 
disinformation, economic manipulation--and he might be right. I 
mean, there is a great study of the Chinese three-way warfare 
in Asia where they are doing something very similar using 
legal, media and psychological warfare to bully the Philippines 
and other neighboring states.
    They don't do it toward us. You know, they wouldn't. They 
just do it toward people they've had. ISIS has come up several 
times. The age of information is becoming the age of 
disinformation and sort of in the 21st century wars might be 
decided by whose story line wins, not what happens on the 
ground.
    It might not even matter anymore that NATO has the biggest 
troops. All that the Russians have to do is make NATO look 
ridiculous by subverting Article 5 and then the whole narrative 
edifice comes crumbling down.
    So there is something new going on. We are all trying to 
work out what it is. But I look at other people studying this 
and I can see we are all coming to similar conclusions.
    Mr. Perry. Thank you, Mr. Chairman. I yield.
    Chairman Royce. We go now to Joaquin Castro of Texas.
    Mr. Castro. Thank you, Chairman, and thank you to each of 
the witnesses for your testimony and for your scholarship and 
your experiences on these issues.
    Mr. Pomerantsev, you mentioned the development of 
conspiracy theories and particularly on the far right in Russia 
the development of those conspiracy theories.
    I would ask you, do you see that spreading anywhere else? 
Is Russia the worst actor with respect to this or how do you 
see that developing in other nations?
    Mr. Pomerantsev. No, sir. Maybe I was unclear. No, no. It 
is spreading within the far right, which is now mainstream in 
Europe, in France, Hungary----
    Mr. Castro. So you are speaking of Europe generally?
    Mr. Pomerantsev. In France----
    Mr. Castro. Sure.
    Mr. Pomerantsev [continuing]. Hungary, Slovakia. Those are 
the countries that have been studied and these parties are 
becoming mainstream. The people who support them are into 
conspiracy theories because, you know, they are into the far 
right----
    Mr. Castro. Sure.
    Mr. Pomerantsev [continuing]. Because they don't trust 
media government so they are drawn toward conspiracy theories.
    Mr. Castro. Well, and I guess let me point out my 
colleague, Mr. Rohrabacher, mentioned--you know, made reference 
to liberalism in the United States.
    But we have a few Presidential candidates running for 
President of the United States who have also cozied up to 
people who are conspiracy theorists and who themselves espouse 
conspiracy theories. Could you speak on that?
    Mr. Pomerantsev. I just don't know the details of that. But 
this is a global problem. I mean, globalization generally has 
led to a breakdown of trust. We can't tell is our Government in 
charge. You know, everybody feels insecure.
    A butterfly flaps its wings in China and a town in Michigan 
goes bust. So we all feel insecure. We all feel that those old 
bonds of trust are creaking a little bit and conspiracy 
theories are the result.
    That is what I mean. The Kremlin can see what is going on 
in Europe and the world. That is why it plays on conspiracy 
theories. They are not being stupid. They can see this is 
rising everywhere and they are trying to feed it.
    In Europe they even fund the--you know, it is a cycle. They 
feed the conspiracy theories and then fund the parties who 
represent that constituency.
    You know, you have got a nice little thing going on. You 
know, this is--this is--the Kremlin thinks it is on the right 
interpretation of history.
    They think this is the way the 21st century is going to 
be--chaotic with no idea of stable reality, no stable global 
institutions and in that context the country or the state or 
even the non-state actor who can be the most subversive, who 
can lie best and be the most kind of, you know, the most 
subversive--there is no better word, sorry--that state will 
win.
    It is a rejection of 21st century based on kind of rules 
and institutions. They are saying don't believe anyone--don't 
believe your institutions--just follow the, you know----
    Mr. Castro. Well, and I guess my question is, and if any of 
you would like to comment on it, do you see--I mean, should we 
be worried about that in the United States or the Americas? Is 
it something that is particular to Russia and to Europe?
    Ms. Wahl. I think that it is something that we should be 
worried about here because I think that that is kind of the aim 
of where I saw at Russia Today at the U.S. bureau is that they 
are trying to mobilize this group of people that are anti-
Western, prone to conspiracy theories, people that are so 
skeptical and paranoid about the establishment, that are 
disillusioned, that think that the mainstream media is not only 
complicit but instrumental in carrying out Western dominance.
    There is a population of people within the U.S. that 
believe in this. And yes, they are a fringe, but as Mr. 
Pomerantsev had pointed out, they are coming out and they are 
branding together and they are finding a place on the Internet 
to come together and to make an impact and to make an effect.
    And I saw while I was there there was a strong focus on 
former--I am sure you are well aware of him, former Congressman 
Ron Paul, and he was kind of the celebrated voice, the 
celebrated candidate--Presidential candidate.
    Why? Well, I mean, I am not going to make an analysis of, 
you know, his policies and, well, how I personally feel toward 
them.
    But he was seen as kind of like the rock star candidate, 
the alternative, somebody that is against, you know, 
intervention, that is very open to speaking out against Western 
meddling, Western hegemony.
    So they do kind of cling to these kinds of voices that tend 
to be favorable to Russian foreign policy. I am not sure that 
it is quite equivalent to what we are seeing in Hungary and 
elsewhere or in the Baltic countries where there is large 
populations of Russian speakers and ethnic Russians that might 
be more susceptible.
    But yes, they are trying to find this group within the West 
and even within here in the United States and trying to 
mobilize them in any way possible, and the thing about these 
people is that they are loud on the Internet.
    They comment on forums. They tweet. They share articles. 
They are--they do. They make an impact. They shape the 
discussion----
    Mr. Castro. Sure.
    Ms. Wahl [continuing]. Whether we like it or not, and I do 
want to comment on, Congressman, earlier about how this is 
nothing new, and I mentioned earlier that yeah, Russia does 
have a history of propaganda.
    But we are seeing something new here and I think that from 
my experience what I have come to realize is that the Kremlin 
is being savvy by using Western media as a model by kind of, 
you know, making it look sexy with slick graphics and kind of 
trying to use the Western model.
    And it is not propaganda all the time. There are some valid 
stories on there. But you kind of sneak in the disinformation 
among the facts and especially when it comes to a war, Ukraine, 
is where this organization was able to be mobilized and 
actually used as a tool for--to further war interests.
    So yes, it is having an impact within the U.S., in my 
opinion and from what I have seen.
    Ms. Dale. If I could just make a remark on what we could 
and should be doing from our side, because it is very easy to 
kind of feel like the Internet takes over your brain and 
suddenly, you know, you feel like your head is going to 
explode.
    I think it is critically important that part of our 
strategy is to, within the U.S. Government and within the news 
organizations that are independent, to try to expose what is 
going on so that when you do see a credible news organization 
suddenly being sponsored by the Russian Government or 
advertising supplements in the newspapers or things that happen 
online that we have a response team, preferably interagency 
within the U.S. Government or within possibly collaborating 
with other organizations that we do not just sit in a receptive 
mode but that--as we did during the Cold War.
    Yes, this is a different age but I think the principles 
that applied then still apply today, that an untruth has to be 
confronted by a truth. That is really the only thing you can 
fight it with.
    You may--the volume may be different today but the 
principle has to be the same and we had that capacity in the 
past. In the past, we fought Soviet disinformation very 
effectively and eventually saw the end of the Soviet Union.
    I am confident that today, if we put together a sufficient 
strategy, we can do the same thing and we should.
    Chairman Royce. Let me just thank Mr. Peter Pomerantsev and 
Ms. Dale, Elizabeth Wahl. Thank you very, very much for your 
testimony today.
    I also wanted to thank the reporters here who report in 
Moldova and in Belarus, Ukraine, Georgia, Russia, for being 
with us and these reporters in particular have been targeted by 
the Kremlin.
    So we wanted to give them an opportunity to be with us 
today. We are going to have to stand adjourned at this time but 
we will continue this dialogue.
    And thank you to all our panelists.
    [Whereupon, at 11:28 a.m., the committee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


         Material Submitted for the Record<greek-l>Notice deg.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
